                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                           '   CLOSEOUT MEMORANDUM
                                                                              -    -




    Case Number: A-07030013                                                                  Page 1 of 1



         We conducted an inquiry in response to an allegation of plagiarism in an NSF proposal.1 We
         contacted the ~1~on the proposal to obtain an explanation for the apparently copied text.
         Because the PI'S explanation did not refute the concern, we referred the allegation to the PI'S
         institution3 for a detailed investigation.

         The institution, in accordance with its policy, conducted an investigation and found the PI
         committed research misconduct. The institution reprimanded the PI ,and took the following
         additional actions: required the PI to (1) complete training on research misconduct, including a
         module on responsible authorship; (2) not submit research proposals (as PI or co-PI) for a period
         of two years; (3) examine with plagiarism-detection software, all proposals submitted for a 4-
         year period; and (4) include a statement affirming that the work is solely the PI'S with each
         submission.

         We reviewed the institution's report and concurred with its findings. We provided our
         assessment and recommendation to NSF (attached). NSF accepted our recommendations and
         made a finding of research misconduct (attached). This case is closed and no further action will
         be taken.




I                                                                                                            I1

NSF 01G Form 2 (1 1/02)                                                                                           i
                                    Executive Summary


Allegation:      Plagiarism.

OIG's Inquiry:   01G found that the PI (the subject) was the sole PI on an NSF proposal that
                 contained text and a figure apparently copied from several source documents.
                 OIG referred the allegation to the subject's University for investigation.

University's                                                                                      \


Investigation
and Actions:     The University's investigation concluded a preponderance of the evidence
                 proved the subject knowingly and recklessly plagiarized text and one figure in
                 the NSF proposal, an act that represents a significant departure from accepted
                 practices of his research community.

                 The University reprimanded the subject. It also required that he: (1) complete
                 training on research misconduct, including a module on responsible
                 authorship; (2) not submit research proposals (as PI or co-PI) for a period of
                 two years; (3) examine with plagiarism-detection software, all proposals he
                 submits for a 4-year period as well as include a statement affirming that the.
                 work is solely his.

OIG
Assessment:
                 '.
                 W e k u r with the University that the subject knowingly plagiarized.

                          The Act: The subject plagiarized a total of 130 lines of text and one
                          figure into his NSF proposal.

                          Intent: We conclude the subject acted knowingly.

                          Standard of Proof: The preponderance of evidence supports the
                          conclusion that the subject knowingly plagiarized these materials
                          into his NSF proposal.

                          Significant Departure: We concur with the University that the
                          subject's copying represents a significant departure from accepted
                          practices.

OIG
Recommendations:
                          Send a letter of reprimand to the subject informing him that NSF has
                          made a finding of research misconduct.
  Require the subject certify to the AIGI that proposals he submits to
  NSF do not contained plagiarized, falsified, or fabricated material for
  a period of 2 years.

   Require the subject submit assurances to the AIGI by a responsible
   official of his employer that any proposals submitted by the subject
   to NSF do not contain plagiarized, falsified, or fabricated material
   for a period of 2 years.

e . Require the subject to complete an ethics course and provide
   documentation of its completion to the AIGI within 1 year.
                                          OIG's Inquiry

        We determined that a declined NSF proposal' submitted by the subject2 contained,
mainly in the Introduction and in the Proposed Research Methods sections, approximately 130
lines of text and one figure identical to material in 9 source d o c ~ m e n t s . ~We wrote4 to the
subject to request his explanation regarding the apparently copied text.

        In his response,5 the subject apologized extensively and attributed the problem to several
factors. The subject alleged that he included text from the 9 online sources and later on, pressed
for time, thought that it was acceptable to leave this material unquoted and uncited. The subject
stated

        This is my first time to write a proposal in English and submit to N S F . ~

Further, he stated

        I was very hurry with that proposal because it is so late that I noticed the proposal
        notice. I, even, did not have enough time to go through the NSF's proposal
        guide.7

In addition he explained

         I underestimated the process time needed by my university that even makes me
         more hurry. I got my Ph.D.    I.           I think that some of not good writing
         behaviors             affected my writing for NSF proposal.8

He also explained that

         I referred to some proposals before I wrote this proposal and noticed that the
         references in those proposals are few and very informal . . . . So, in my mind, I
         subconsciously think that the online resource is NOT the formal references and
         referring to them in proposal whose references are also NOT strictly required is
         not necessary.'




 Tab 4.
6
 Tab4,p. 1.
 Tab 4, p. 1
'~ab4,~    1. .
                            1
 Tab 4, p. 2.
            The subject acknowledged copying text from sources A, C, F, G, and H. He denied
    plagiarizing from the other four sources. Regarding source B, the subject stated: "NO. I did not
    copy it from this document. It is my first time that I saw this document. This is about definition,
    I got it from wikipedia. . . . . Also, I think that the wikipedia is similar to the traditional
    dictionary, a tool in the information era.'"' Regarding source D, he claimed that he was very
    familiar with the source, so that when writing on the subject, he just used his memory to produce
    the similar wording. For source E, he denied ever seeing this source and indicated that perhaps
    he read a similar document and, as with source D, wrote from memory. For source I, he
    acknowledged reading this item, but claimed that he wrote his proposal materials on his own.

            After reviewing the subject's response, we determined that there was sufficient substance
    to the allegation and referred the matter to the subject's University for investigation."
I
                                                Universitv's Inquiry

           The University followed its "Policy on Scientific is conduct."'^ As such, it initiated an
    inquiry that was "conducted by the Administrator closest to the allegation."I3 The University's
    Inquiry Report is attached.I4

            The Inquiry verified the correlation between the lines allegedly plagiarized in the
    proposal and the sources provided by OIG. In addition, the Administrator used software
    (Turnitin) to examine an unfunded proposal to NASA and five paperslabstracts authored by the
    subject. Turnitin did not find any additional unattributed text from other sources. The
    Administrator interviewed the subject, and the subject expanded on his initial comments to OIG.

           The Administrator reached the conclusion that there was sufficient substance to move to
    an investigation.15

                                            University's Investigation

          The Investigation Panel (the Panel) reviewed the Inquiry Report. Subsequently, the Panel
    convened a hearing to interview the subject, as well as other witnesses. The "Final Report of the
    Ad-Hoc Committee on Research Misconduct" is attached.16

           During his interview with the Panel, the subject acknowledged his actions and provided
    explanations similar to those included in his letter to OIG. The Panel stated that the subject




    lo  Tab 4, p. 3.
    'I  Tab 5.
    ''
    13
        Tab 6.
        Tab 6, page 3.
    l 4 Tab 7.
    I S Tab 7.
    l6 Tab 8. Page numbers were added to the document by OIG to aid in the identification of quotations.
                                                                                              -
          clarified that he did think that online resources should be cited, but he didn't think
          that it was that important. He thought it was something that would have been nice
          if time had allowed, but he didn't think it was required.I7

         Another witness, the subject's supervisor, stated that he.did not review the subject's
proposal because he did not have time. Further, he indicated that his group does not provide
ethics training for the employees. The supervisor explained that most of the allegedly copied
text involved background information on a topic that was somewhat outside the subject's field of
study. In addition, the supervisor emphasized that the material allegedly plagiarized did not
relate "to the original ideas for the research.""

       A second witness, the Assistant Director of the subject's laboratory, and also a
,       stated that, in their culture "many
                                         .- web sources cross-reference one another, and the
material is seen as standard knowledge.""

       Despite the comments provided by the witnesses, and based on the evidence it had
reviewed, the Panel determined that the preponderance of evidence proved: 20
           1. the subject plagiarized the materials;
           2. the plagiarism departed significantly from accepted practices; and
           3. the plagiarism was done knowingly and recklessly.

       The Panel, however, found a mitigating circumstance in the subject's partial lack of
understanding of the seriousness of the issue:

          [Tlhe committee believes that although [the subject] knowingly included material
          from the web, he did not understand the significance of including this material as
          part of the proposal without appropriate ~itation.~'

          The Panel recommended that the subject:22
             1. be required to attend training on research misconduct;
             2. not be allowed to serve as PI or co-PI in any grant proposal for a period of two
                 years; and
             3. be required to have any proposal submitted within a period of four years inspected
                using plagiarism-detection software. The proposal(s) must also include the
                 following statement: "I hereby affirm that all of the material I have contributed to
                this proposal is solely my work. All work deriving from other sources has been
                 properly cited. I understand that violation of this statement is cause for removal
                 from my position at [the]


l7  Tab 8, p. 5.
" ' ~ a b8, p. 5.
l 9 Tab 8,p. 6.
20
    Tab8,p. 1.
21
    Tab 8, p. 2.
22
    Tab 8, p. 2.
23 Tab 8, p. 2..
               The a d j ~ d i c a t o raccepted
                                         ~~      the recommendations of the Panel and informed the subject of
the       sanction^.^^
                                                OIG Assessment

       We contacted the subject26to seek his comments to the University Report. He did not
respond.

             NSF7sResearch Misconduct regulation states that a finding of misconduct requires:

             (1) There be a significant departure from accepted practices of the relevant                    .
             research community; and (2) The research misconduct be committed
             intentionally, or knowingly, or recklessly; and (3) the allegation be proven by a
             preponderance of the evidence.27

       We accept the University's report as accurate and complete and conclude that the
University followed reasonable procedures in its investigation.

                                                     The Acts

       We conclude that the subject plagiarized 130 lines of text and one figure from 9 online
website sources into his NSF proposal. The total amount of copied material is significant,
representing about 3 pages of text.




     -
        We agree with the university's conclusion that the subject acted knowingly when he
plagiarized the text and figure from multiple sources into his NSF proposal.28 The subject
argued that he was not fully aware of the expectations of scholarship in proposals to NSF
because
- .  -~  he had not trained in the U.S. His education (including his post-doctoral experience)
                             However, he has been working at the university for more than 5
years." In that time, he has produced one additional research proposal and 5 papers/abstracts.31
Therefore, we find the subject's argument that he lacked appropriate awareness unpersuasive.


24
25 Tab 9.
26 Tab 10.
" 45 C.F.R. 5 689.2(c).
28
   The Panel stated that the subject acted "knowingly and recklessly" (see Footnote 21) ; however, because the
Panel's conclusion that the subject acted knowingly is supported by a preponderance of the evidence, there is no
need to evaluate the committee's assertion regarding recklessness.
29   Tnh 1 1
                                           Standard o f Proof

       A finding of research misconduct requires proof by a preponderance of the evidence. We
conclude that the preponderance of the evidence indicates that the subject plagiarized these
materials into his proposal without appropriately distinguishing the text and figure from his own
work, and he did so knowingly.

                                         Significant Departure

       01G also concurs wi& the University's assertion that this behavior significantly departs
from accepted practices. Therefore, OIG concludes that the subject's actions constitute research
misconduct.

                                   OIG Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider:

           (1) How serious the misconduct was. (2) The degree to which the misconduct was
           knowing, intentional, or reckless. (3) Whether it was an isolated event or part of a
           pattern. (4) Whether it had a significant impact on the research record, research
           subjects, other researchers, institutions or the public welfare. And (5) other
           relevant circumstances.32



        Plagiarism strikes at the very heart of research integrity and is an unacceptable practice
within the research community. NSF informs all potential applicants:

           NSF expects strict adherence to the rules of proper scholarship and attribution.
           The responsibility for proper attribution and citation rests with authors of a
           proposal; all parts of the proposal should be prepared with equal care for this
           concern. Serious failure to adhere to such standards can result in findings of
           research misconduct. NSF policies and rules on misconduct in science and
           engineering are discussed in Grant Policy Manual (GPM) Section 930 as well as
           in 45 CFR Part 689. (GPG section I.B. (1012003)).

        The subject's actions are a violation of the standards of scholarship and of the
fundamental tenets of research ethics in his community.3' The extent of the plagiarism is
significant. While the actual research ideas in the subject's proposal are original, the subject
included plagiarized materials in several areas of the proposal in order to compensate for his lack
of familiarity with the background information.




32   45 C.F.R. Q 689.3(b).
    1                                                    Degree o f Intent
    1
               Although the amount of text plagiarized by the subject is significant, we also note that the
        subject's experience level and education were considered when completing our intent analysis.
        The fact that the subject's education was entirely outside of the United States, his institution
        provided no ethics training, and that he has had limited experience in publishing articles and
        submitting research proposals, suggest that the subject's knowing intent was perhaps not as
        egregious as in other cases we have investigated.

I                                               Impact on the research record
I



1       There is no evidence of any impact on the research record as a result of the plagiarism in this
        unfunded proposal submitted to NSF.
i
I                                                      Recommendation

                Based on the evidence, OIG recommends that NSF:


                                                                  x
                            send the subject a letter of re rimand informing him that NSF has made a
                            finding of research misconduct;

                            require the subject to certify to the Associate Inspector General for
                            Investigations (AIGI) that proposals or reports he submits to NSF do not contain
                            plagiarized, falsified, or fabricated material for a period of 2 years;34

                            require that the subject submit assurances by a responsible official of his
                            employer to the AIGI that any proposals or reports submitted by the subject to
                            the NSF do not contain plagiarized, falsified, or fabricated material for a period
                            of 2 years;35and

                            require that the subject complete an ethics course and provide documentation of
                            its completion to the AIGI.

                                                      Subiect's Response

              We sent a copy of the draft investigation report to the subject,j6 but he did not respond.




        33 A letter of reprimand is a Group I action (45 C.F.R. 5 689.3(a)(l)(i)).
        34 Certification by an individual is authorized in 45 C.F.R. 689.3(a).
        35 Requirement for assurances is a Group I action (45 C.F.R. 4 689.3(a)(l)(iii)).
        36 Tab 12.
                                      NATIONAL SCIENCE FOUNDATION
                                           4201 WILSON BOULEVARD
                                          ARLINGTON. VIRGIN lA 22230



                                                NOV 2 1 2008

         OFFICE OF THE
        DEPUTY DIRECTOR




i    CERTIFIED MAIL --RETURN RECEIPT REOUESTED
1




             Re:    Notice of Research Misconduct Determination




            In 2006, you submitted a proposal to the National Science Foundation ('NSF") entitled,
                                                                 As documented in the attached
    Investigative Report prepared by NSF's Office of Inspector General ("OIG"), this proposal
    contained plagiarized text.

    Research Misconduct and Proposed Sanctions
            Under NSF7sregulations, "research misconduct" is defined as "fabrication, falsification, or
    plagiarism in proposing or performing research fhded by NSF ..." 45 CFR 8 689.1(a). NSF
    defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
    without giving appropriate credit." 45 CFR 4 689.l(a)(3). A finding of research misconduct
    requires that:

           (1) There be a significant departure fiom accepted practices of the relevant research
               community; and
           (2) The research misconduct be committed intentionally, or knowingly, or recklessly; and
           (3) The allegation be proven by a preponderance of evidence.

    45 CFR   4 689.2(c).
           Your proposal contained verbatim and paraphrased text and graphical figures fiom several
    source documents. By submitting a proposal to NSF that copies the ideas or words of another
    without adequate attribution, as described in the OIG Investigative Report, you    .
                                                                                                    Page 2
     misrepresented someone else's work as your own. In addition, you failed to properly
     acknowledge or credit the authors of the source documents in your proposal. Your conduct
     unquestionably constitutes plagiarism. I therefore conclude that your actions meet the definition
     ofUresearchrnisconduct" set forth in NSF7sregulations.

            Pursuant to NSF regulations, the Foundation must also determine whether to make a
    $ndirzg of misconduct based on a preponderance of the evidence. 45 CFR 4 689.2(c). Afler
    reviewing the Investigative Report and the University Panel Report, NSF has determined that,
    based on a preponderance of the evidence, your plagiarism was committed knowingly and
    constituted a significant departure fiom accepted practices of the relevant research community. I
    am, therefore, issuing a finding of research rnisconduct against you.

             NSF7sregulations establish three categories of actions (Group I, 11, and 111) that can be
    taken in response to a fmding of misconduct. 45 CFR 5 689.3(a). Group I actions include issuing
    a letter of reprimand; conditioning awards on prior approval of particular activities from NSF;
    requiring that an institution or individual obtain special prior approval of particular activities from
    NSF; and requiring that an institutional representative certify as to the accuracy of reports or
    certifications ofcompliance with particular requirements. 45 CFR 4 689.3(a)(l). Group I1
    actions include award suspension or restrictions on designated activities or expenditures; requiring
    special reviews of requests for funding; and requiring correction to the research record. 45 CFR 3
    689.3(a)(2). Group 111 actions include suspension or termination of awards; prohibitions on
I
I   participation as NSF reviewers, advisors or consultants; and debarment or suspension fiom
    participation in NSF programs. 45 CFR 689.3(a)(3).

           In determining the severity of the sanction to impose for research rnisconduct, I have
    considered the seriousness of the misconduct, our determination that it was knowing, as well as
    our determination that it was an isolated incident. I have also considered the fact that your
    misconduct did not have a significant impact on the research record, as well as the contrition that
    you demonstrated during the investigative process. 1 have also considered other relevant
    circumstances. 45 CFR 689.3 (b).

            In light of the foregoing, I am requiring that, fiom the date of this letter until December 1,
    2010, you certifL that any proposal you submit as a principal investigator or co-principal
    investigator does not contain plagiarized, falsified, or fabricated material. In addition, for this
    same time period, an official of your employer must provide written assurance that any proposal
    you'subrnit as a principal investigator or co-principal investigator does not contain any
    plagiarized, falsified or fabricated information. Lastly, by June 1, 2009, you must certify that you
    attended a course on research ethics and plagiarism, and provide documentation to prove your
    attendance at that course. Such certifications and assurances should be submitted in writing to
    the Office of Inspector General, Associate Inspector General for Investigations, 4201 Wilson
    Boulevard, Arlington, Virginia 22230.
                                                                                                   Page 3
    ,
        Procedures Governing Appeals
                Under NSF's regulations, you have 30 days after receipt of ths letter to submit an appeal
        ofthis decision, in writing, to the Director of the Foundation. 45 CFR 689.10(a). Any appeal
        should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
,       Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, this
        decision will become final.

               For your information, we are attaching a copy of the applicable regulations. If you have
        any questions about the foregoing, please call             Assistant General Counsel, at (703)
        292-8060.



                                                            Sincerely,



                                                            Kathie L. Olsen
                                                            Deputy Director



        Enclosures
        - Investigative Report
        - 45 C.F.R. Part 689
